APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXITH CIRCUIT
_______
DAVID BRYON BABCOCK,
Plaintiff-Appellant,
v.
COMMISSIONER OF SOCIAL SECURITY,
Defendant-Appellee.
_______
No. 19-1687
_______
Appeal from the United States District Court for the
Western District of Michigan at Grand Rapids.
No. 1:18-cv-00255–Gordon J. Quist, District Judge.
_______
Argued: March 10, 2020
_______
Decided and Filed: May 11, 2020
_______
Before: COLE, Chief Judge; BOGGS and SUTTON,
Circuit Judges.
_______
OPINION
_______

2a
COLE, Chief Judge. This case asks us to decide
whether a federal civil-service pension based on work
as a National Guard dual-status technician qualifies
as “a payment based wholly on service as a member
of a uniformed service” under the Social Security Act.
We agree with the district court that it does not.
I.
Plaintiff-Appellant David Babcock joined the
Michigan National Guard in 1970 as an enlisted
soldier. After serving for three-and-a-half years,
Babcock went to flight school, received his pilot
license and, in 1975, became employed as a National
Guard dual-status technician. He worked in that
position for over 33 years.
By statute, a National Guard dual-status
technician “is a Federal civilian employee” who “is
assigned to a civilian position as a technician” while
maintaining membership in the National Guard. 10
U.S.C. § 10216(a)(1); see also 32 U.S.C. § 709(e)
(providing that National Guard dual-status
technicians are employees of both the United States
and either the Department of the Army or the
Department of the Air Force). These technicians are
responsible for “the organizing, administering,
instructing, or training of the National Guard” or
“the maintenance and repair of supplies issued to the
National Guard or the armed forces.” 32 U.S.C.
§ 709(a)(1)—(2); accord 10 U.S.C. § 10216(a)(1)(C).
Babcock, for his part, served in various roles as a test
pilot and pilot instructor for the Michigan National
Guard. Additionally, as is required of all dual-status
technicians, Babcock held the appropriate military
grade for his position, wore a uniform that displayed
his rank and unit insignia while working, and

3a
attended weekend drills. See 32 U.S.C. § 709(b); see
also id. § 502(a) (requiring National Guard members
to complete certain drills and training). Dual-status
technicians may also be required to support
operations or missions undertaken by their units.
See 32 U.S.C. § 709(a)(3)(A). Indeed, for a period
between 2004 and 2005, Babcock was deployed to
Iraq on active duty.
Babcock received military pay for his active-duty
service in Iraq and his inactive-duty training,
including weekend drills. See generally 37 U.S.C.
§§ 204(a), 206 (military pay provisions). But
otherwise, he received civil pay and participated in
the Civil Service Retirement System (“CSRS”). See
generally 5 U.S.C. §§ 5301 et seq. (describing the
federal civil pay system); id. § 8332(b)(6) (providing
that employment as a dual-status technician is
eligible for the CSRS). In accordance with the Social
Security Act, Babcock paid Social Security taxes on
the wages for his active-duty service in Iraq and for
his inactive-duty training from 1988 onwards. See 42
U.S.C. § 410(1)(1). He did not pay Social Security
taxes on his wages for inactive-duty training before
1988 or on his civil-service wages. See id.; see also id.
§ 410(a)(5).
Babcock retired from his position as a dual-status
technician on January 31, 2009. At the time, he was
classified as a grade 13, step 10, Aircraft Flight
Instructor. Upon his retirement, he began receiving
monthly CSRS payments from the Office of
Personnel Management (“OPM”). He also began
receiving separate military retirement pay from the
Defense Finance and Accounting Service (“DFAS”).
For several years after his retirement from his role

4a
as a dual-status technician, Babcock flew medicalevacuation helicopters for hospitals. His income from
this private-sector employment was subject to Social
Security taxes. Babcock fully retired in 2014.
On September 30, 2014, Babcock applied for Social
Security retirement benefits. On his application, he
confirmed that he was receiving monthly CSRS
payments. The Social Security Administration
(“SSA”) granted Babcock’s application but reduced
his benefits under the Windfall Elimination
Provision of the Social Security Act (“WEP”) because
of his CSRS pension. See 42 U.S.C. § 415(a)(7)(A).
Babcock asked the SSA to reconsider its decision,
citing an exception to the WEP for payments “based
wholly on service as a member of a uniformed
service.” See id. § 415(a)(7)(A)(III). Babcock argued
that this uniformed-services exception applied to his
CSRS pension based on his work as a dual-status
technician.
At the time, the only federal court of appeals to
have addressed the applicability of the uniformedservices exception to a dual-status technician’s CSRS
pension was the Eighth Circuit. According to the
Eighth Circuit, the text of the exception imposes only
the “limited” requirement that “service be as a
member of the uniformed service.” Petersen v. Astrue,
633 F.3d 633, 637 (8th Cir. 2011). The Eighth Circuit
held that service as a dual-status technician meets
this requirement, and therefore, the uniformedservices exception unambiguously applies to a
pension based on service as a dual-status technician.
Id. at 637-38.
In response to the Petersen decision, the SSA issued
Acquiescence Ruling (“AR”) 12-1(8) to explain how it

5a
would apply the WEP and the uniformed-services
exception for claimants residing within the Eighth
Circuit. See 77 Fed. Reg. 51,842 (Aug. 27, 2012).
Under AR 12-1(8), the WEP does not apply when a
claimant receives a federal pension based wholly on
employment as a dual-status technician for the
National Guard; the claimant resides in a state
within the Eighth Circuit; and the agency makes a
benefits determination after February 3, 2011, the
date of the Petersen decision. See id. at 51,842-43.
For claimants residing outside of the Eighth Circuit,
however, the WEP would continue to apply if the
claimant receives a federal pension based on
employment as a dual-status technician. See id.
Accordingly, because Babcock was not a resident of
the Eighth Circuit, the SSA refused to alter its initial
determination that the WEP applied to Babcock’s
Social
Security
retirement
benefits.
An
administrative law judge (“ALJ”) upheld the SSA’s
determination, and the Appeals Council affirmed the
ALJ’s decision.
Babcock then sought judicial review by filing suit
against the Commissioner of Social Security in the
United States District Court for the Western District
of Michigan. While his case was pending before the
district court, the Eleventh Circuit decided Martin v.
Social Security Administration, Commissioner, in
which it rejected the Eighth Circuit’s analysis and
held that the uniformed-services exception does not
apply to dual-status technicians. 903 F.3d 1154, 1168
(11th Cir. 2018) (per curiam). Focusing on the words
“wholly” and “as” in the text of the statute, the
Eleventh Circuit concluded that “even if dual status
technician employment is essentially military, it is

6a
not subject to the uniformed services exception if it is
not wholly military in nature.” Id. at 1166 (emphasis
in original). Finding it “difficult to conclude that a
dual status technician wholly performs that role as a
member of the National Guard,” the Eleventh Circuit
decided that the Commissioner had the more
persuasive reading of the statute. See id. at 1166,
1168.
Faced with both the Petersen and Martin decisions,
the district court concluded that the Eleventh
Circuit’s analysis in Martin was “more persuasive
than the Petersen court’s analysis” and was “based on
the correct application of the language of the
exception,” and thus, the uniformed-services
exception was inapplicable (and the WEP applied) in
Babcock’s case. Babcock v. Comm’r of Soc. Sec., 2019
WL 2205712, at *2 (W.D. Mich. May 22, 2019). The
district court also rejected Babcock’s claim that his
rights to due process and equal protection were
violated because the WEP applied differently to
claimants within the Eighth Circuit. Id. at *3. The
district court accordingly entered judgment in favor
of the Commissioner, and this timely appeal
followed.
II.
We review the district court’s decision de novo.
Valley v. Comm’r of Soc. Sec., 427 F.3d 388, 390 (6th
Cir. 2005). Because our review involves interpreting
a statute that the Commissioner has authority to
administer, 42 U.S.C. § 405(a), we start by asking
“whether Congress has directly spoken to the precise
question at issue.” See Chevron, U.S.A., Inc. v. Nat.
Res. Def. Council, Inc., 467 U.S. 837, 842 (1984). If
we can ascertain “the unambiguously expressed

7a
intent of Congress,” the inquiry ends, and we must
give effect to Congress’s unambiguous construction of
the statute. Id. at 842-43; accord Pereira v. Sessions,
138 S. Ct. 2105, 2113 (2018). Only if the statute is
silent or ambiguous on the particular issue do we
turn to the question of whether to defer to the
Commissioner’s interpretation of the statute. See
Chevron, 467 U.S. at 843; see also Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1612, 1629-30 (2018).
In deciding whether Congress has spoken directly
to the issue at hand, we do not confine ourselves “to
examining a particular statutory provision in
isolation.” FDA v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 132 (2000). Rather, we must
read the words of the statutory provision “in their
context and with a view to their place in the overall
statutory scheme.” Id. at 133 (quoting Davis v. Mich.
Dep’t of Treasury, 489 U.S. 803, 809 (1989)); see also
United States v. Parrett, 530 F.3d 422, 429 (6th Cir.
2008) (“Plain meaning is examined by looking at the
language and design of the statute as a whole.”
(quoting United States v. Wagner, 382 F.3d 598, 607
(6th Cir. 2004))). Additionally, we are cognizant that
“the meaning of one statute may be affected by other
Acts, particularly where Congress has spoken
subsequently and more specifically to the topic at
hand.” Brown & Williamson, 529 U.S. at 133.
Employing the available tools of statutory
interpretation, we conclude that the uniformedservices exception does not apply to a civil-service
pension based on employment as a dual-status
technician.

8a
A.
The Social Security Act provides individuals with a
retirement benefit based on a percentage of their
pre-retirement income from “covered” employment—
i.e., income that was subject to Social Security taxes.
See generally 42 U.S.C. § 415 (describing the
calculation of benefits). Under the Act’s progressive
scheme, retirement benefits are not calculated as a
flat percentage of pre-retirement income but rather
adjusted so that individuals with lower average
earnings over their working lives receive a greater
percentage of their average earnings than those with
higher average earnings. See id. § 415(a)(1)(A). In
other words, lower-income workers receive a greater
return on their Social Security contributions than
higher-income workers. See id.
Not all employment is covered under the Act. See
id. § 410(a). For example, the Act does not cover
federal civilian employment for those hired before
1984 and participating in the CSRS. Id. § 410(a)(5).
The Act also does not cover certain types of
employment in the military over certain periods.
Specifically, while “active duty” service after 1956 is
covered, as is “inactive duty training” (e.g., weekend
drills) after 1987, inactive duty training between
1957 and 1987 is not covered. See id. § 410(1)(1).
Income from “noncovered” employment is exempt
from Social Security taxes and not included in
calculating the amount of an individual’s Social
Security benefits. See id. § 415(b). Many noncovered
positions nonetheless have a separate annuity or
pension plan for workers. See, e.g., 5 U.S.C. §§ 8331
et seq. (providing for the CSRS). Accordingly,
individuals who have been in both covered and

9a
noncovered employment may end up receiving both
Social Security retirement benefits and a separate
annuity or pension. And because only income from
covered employment is used to calculate Social
Security benefits, those individuals with both
covered and noncovered employment also receive a
higher return on their Social Security contributions
than those with only covered employment. See 42
U.S.C. §§ 415(a)(1)(A), 415(b). In other words,
individuals with both covered and noncovered
employment tend to have their Social Security
benefits calculated as if they were long-term lowwage earners, and thus benefit from the Act’s
progressive formula.
To address this windfall effect, Congress amended
the Social Security Act in 1983 to add a Windfall
Elimination Provision, or WEP. Pub. L. No. 98-21,
§ 113(a), 97 Stat. 65 (1983); see also H.R. Rep. No.
98-25, pt. 1, at 21-22 (1983), reprinted in 1983
U.S.C.C.A.N. 219, 239-40. The WEP modifies the
standard benefits formula for a recipient who is also
entitled to “a monthly periodic payment” that “is
based in whole or in part upon his or her earnings”
for noncovered employment. 42 U.S.C. § 415(a)(7)(A);
see also id. § 415(a)(7)(B) (detailing the modified
formula). In short, the WEP is targeted at those
individuals who gain an unintended advantage by
receiving a separate pension or annuity based on
noncovered work while simultaneously having
relatively low earnings from covered work.
B.
That brings us to the uniformed-services exception
at issue here, which Congress added in 1994. Pub. L.
No. 103-296, § 308(b), 108 Stat. 1464 (1994). Under

10a
this exception, “a payment based wholly on service as
a member of a uniformed service” does not trigger
application of the WEP. 42 U.S.C. § 415(a)(7)(A)(III).
The statute defines a “member of a uniformed
service” as “any person appointed, enlisted, or
inducted in a component of the Army, Navy, Air
Force, Marine Corps, or Coast Guard,” including a
“reserve component” such as the National Guard. Id.
§ 410(m); see also 38 U.S.C. § 101(27). We
understand “service” here to refer to work.
Aside from the terms whose meaning arises from
the statute, we construe statutory terms in
accordance with their plain and ordinary meaning.
See, e.g., Sebelius v. Cloer, 569 U.S. 369, 376 (2013);
Sunrise Coop., Inc. v. U.S. Dep’t of Agric., 891 F.3d
652, 657 (6th Cir. 2018). In this context, the word
“wholly” plainly means “to the full or entire extent”
or “to the exclusion of other things.” Martin, 903 F.3d
at 1163 (quoting Wholly, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY 2612 (1961)); accord
Kientz v. Comm’r, SSA, 954 F.3d 1277, 1282 (10th
Cir. 2020) (defining wholly to mean “‘entirely’ or
‘exclusively’ (quoting Wholly, AMERICAN HERITAGE
DICTIONARY OF THE ENGLISH LANGUAGE 1463
(1981))). Additionally, the word “as” in this context
“limit[s] the uniformed services exception only to
payments for work performed in one’s capacity or
role as a member of the uniformed services.” Martin,
903 F.3d at 1164 (citing As, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY, supra, at 125); see also
Kientz, 954 F.3d at 1282 (giving the word “as” “the
ordinary meaning of ‘in the role, capacity, or function
of” (quoting As, AMERICAN HERITAGE DICTIONARY OF
THE ENGLISH LANGUAGE, supra, at 76)). Thus, the

11a
uniformed-services exception does not apply simply
because an individual was a member of a uniformed
service while working in noncovered employment.
Rather, by its plain text, the uniformed-services
exception is cabined to payments that are based
exclusively on employment in the capacity or role of
a uniformed-services member.
Babcock’s CSRS pension is not such a payment. As
its name suggests, the CSRS is for those employed
“in the civilian service of the Government.” 5 U.S.C.
§ 8332(b). Individuals covered under the CSRS may
receive credit for periods of military service, but
service in the military by itself, without civilian
employment, does not make an individual eligible to
participate in the CSRS. See id. § 8332(c), (j); see also
Vidal v. Office of Pers. Mgmt., 267 F. App’x 946, 948
(Fed. Cir. 2008) (per curiam) (“[M]ilitary service does
not automatically count towards eligibility for
benefits in the civil service system.”). The only
reason dual-status technicians like Babcock may
participate in the CSRS, and receive a CSRS
pension, is that they are “Federal civilian
employee[s]” who are “assigned to a civilian
position.” 10 U.S.C. § 10216(a)(1)(C); see also 5
U.S.C. § 8332(b)(6) (providing that employment as a
dual-status technician is civilian service for purposes
of the CSRS); N.J. Air Nat. Guard v. FLRA, 677 F.2d
276, 279 n.2 (3d Cir. 1982) (noting that one of the
primary reasons Congress created the position of
dual-status technician was so that National Guard
technicians would be considered federal civilian
employees and eligible for civil-service retirement
benefits). Therefore, by its very nature, a dual-status
technician’s CSRS pension is not a payment based

12a
exclusively on employment in the capacity or role of
a uniformed-services member.
The broader statutory context supports the
conclusion that the uniformed-services exception
does not encompass the CSRS pension of a dualstatus technician. Within the Social Security Act, the
uniformed-services
exception
operates
as
a
qualification of the WEP, which broadly applies
when a claimant separately receives a pension based
on earnings from noncovered employment. See 42
U.S.C. § 415(a)(7)(A). As an exception to the general
rule, the uniformed-services exception should be
construed narrowly. See Comm’r v. Clark, 489 U.S.
726, 739 (1989) (“In construing provisions . . . in
which a general statement of policy is qualified by an
exception, we usually read the exception narrowly in
order to preserve the primary operation of the
provision.”); accord M.L. Johnson Family Props.,
LLC v. Bernhardt, 924 F.3d 842, 854 (6th Cir. 2019).
The uniformed-services exception should be
construed narrowly with respect to a CSRS pension
in particular because the various provisions of the
Social Security Act, taken together, make plain that
the WEP is meant to apply to former federal
employees receiving a CSRS pension. See 42 U.S.C.
§§ 410(a)(5), 415(a)(7); see also, e.g., Ward v. Comm’r
of Soc. Sec., 211 F.3d 652, 655 (1st Cir. 2000) (“The
reason behind the WEP was that an individual who
had been employed as a federal employee with
pension benefits and also was entitled to Social
Security retirement benefits would receive a windfall
because he [or she] would be eligible for both Social
Security and federal civil service pension
payments.”). Thus, the broader statutory context and

13a
the place of the uniformed-services exception in the
overall statutory scheme support our conclusion that
the plain text of the exception does not encompass a
dual-status technician’s CSRS pension.
Finally, we note that, in addition to his CSRS
pension from the OPM, Babcock receives separate
military retirement pay from the DFAS based on his
work as a dual-status technician. There is no dispute
that Babcock’s military pension falls within the
ambit of the uniformed-services exception. That
Babcock receives a separate military pension to
which the uniformed-services exception applies only
bolsters the conclusion that his CSRS pension does
not qualify for the uniformed-services exception.
C.
Babcock resists the conclusion that his CSRS
pension falls outside the scope of the uniformedservices exception. He argues his CSRS pension is
based entirely on his work as a dual-status
technician, and this work is wholly indistinguishable
from military employment because he had to
maintain membership in the National Guard, hold
the appropriate military grade for his position, wear
a military uniform on a daily basis, and be prepared
to be deployed on active duty. He argues, moreover,
that his “status” as a civilian employee is irrelevant
under the plain language of the statute.
We do not discount the fact that the job
requirements of a dual-status technician overlap
with those of other National Guard members—or
that, from the perspective of the technician, the work
of a dual-status technician may be materially similar
to military employment. The plain language of the
uniformed-services exception, however, instructs us

14a
to look at “a payment” and ask whether that
payment is based exclusively on employment in the
capacity or role of a member of a uniformed service.
See 42 U.S.C. § 415(a)(7)(A)(III). As we have
explained, a CSRS pension must be based at least
partly on some employment “in the civilian service of
the Government,” see 5 U.S.C. § 8332(b), and
therefore, Babcock’s CSRS pension is not a payment
based exclusively on employment in the capacity or
role of a uniformed-services member.
Additionally, though Babcock contends it is
irrelevant, his designation as a “civilian” employee of
the United States, “assigned to a civilian position as
a technician,” see 10 U.S.C. § 10216(a)(1)(C), is
meaningful—and more than a mere “status”—in the
context of Social Security retirement benefits.
Because Babcock was a federal civilian employee, he
was subject to the same General Schedule (“GS”) pay
scale as other federal civilian employees—ultimately
retiring as a grade 13, step 10, Aircraft Flight
Instructor. See generally 5 U.S.C. §§ 5331 et seq.
(describing the GS pay rates and system). As a
federal civilian employee hired before 1984, Babcock
did not have Social Security taxes deducted from his
GS-based civilian pay, unlike uniformed-services
members in covered employment. See 42 U.S.C.
§§ 410(a)(5), 410(1)(1). Most importantly, Babcock
was eligible to participate in the CSRS, which nontechnician members of the uniformed services
(without some other civilian employment) are unable
to do. See 5 U.S.C. § 8332(b)(6). These differences
distinguish Babcock’s service as a dual-status
technician from that of other National Guard
members and indicate that his dual-status

15a
technician employment is not wholly “service as a
member of a uniformed service” under the
uniformed-services exception. See 42 U.S.C.
§ 415(a)(7)(A)(III); see also Martin, 903 F.3d at 1166
(“[E]ven if dual status technician employment is
essentially military, it is not subject to the uniformed
services exception if it is not wholly military in
nature.” (emphasis in original)).
Babcock argues that our precedents involving the
Feres doctrine establish that employment as a dualstatus technician is indeed military employment. See
Feres v. United States, 340 U.S. 135 (1950). Several
of our cases applying Feres hold that the position of a
National Guard technician is “irreducibly military in
nature.” Fisher v. Peters, 249 F.3d 433, 443 (6th Cir.
2001); accord Leistiko v. Stone, 134 F.3d 817, 820-21
(6th Cir. 1998) (per curiam) (quoting Leistiko v. Sec’y
of the Army, 922 F. Supp. 66, 75 (N.D. Ohio 1996)).
But the Feres doctrine is about whether military
personnel can sue their colleagues or the government
for injuries resulting from military service. See Feres,
340 U.S. at 144-46; see also Chappell v. Wallace, 462
U.S. 296, 299 (1983) (applying Feres in the Bivens
context); Fisher, 249 F.3d at 443 (extending Feres to
Title VII claims). That the work of a dual-status
technician is “irreducibly military” for purposes of
suing other military personnel or the government
does not resolve whether the role is wholly service as
a member of a uniformed service for purposes of
calculating Social Security retirement benefits,
which focuses critically on the types and sources of a
claimant’s earnings. See 42 U.S.C. §§ 410, 415. As we
have described, in terms of the types and sources of
earnings, there are meaningful differences between

16a
dual-status technicians and other members of the
uniformed services. Therefore, our cases in the Feres
context do not help Babcock here or undermine our
conclusion that his CSRS pension falls outside the
scope of the uniformed-services exception.
D.
Finally, we turn to Babcock’s constitutional claims.
Babcock asserts that his rights to due process and
equal protection were violated because he was
treated differently than a similarly situated resident
of the Eighth Circuit. But “[n]o court has ever held
that the mere existence of a circuit split on an issue
of statutory interpretation violates due process or
equal protection . . . .” Habibi v. Holder, 673 F.3d
1082, 1088 (9th Cir. 2011); see also Roberts v. Holder,
745 F.3d 928, 933 (8th Cir. 2014) (“Disagreements
among the courts of appeal, or between an agency
and one or more of the courts of appeal, will not by
itself [sic] create an equal protection violation.”).
Babcock cannot sustain a due-process or equalprotection claim solely on the basis of a circuit split.
III.
We hold that the uniformed-services exception does
not apply to Babcock’s CSRS pension. We accordingly
affirm.

17a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
_______
DAVID BABCOCK,
Plaintiff,
v.
COMMISSIONER OF SOCIAL SECURITY,
Defendant.
_______
Case No. 1:18-CV-255
_______
May 22, 2019
_______
HON. GORDON J. QUIST
_______
ORDER ADOPTING REPORT AND
RECOMMENDATION
_______
Plaintiff, a retiree from the Michigan National
Guard, filed a complaint pursuant to 42 U.S.C.
§ 405(g) seeking judicial review of the Commissioner
of Social Security’s final review of Plaintiff’s
challenge to the Commissioner’s calculation of
Plaintiff’s retirement benefits under Title II of the
Social Security Act. Plaintiff was employed from

18a
1975 until 2009 as a National Guard dual status
technician. On September 30, 2014, Plaintiff applied
for retirement insurance benefits. At that time,
Plaintiff was receiving a federal pension based on
noncovered employment—that is, employment that
was exempt from Social Security taxes. See Martin v.
Soc. Sec. Admin., Comm’r, 903 F.3d 1154, 1156 (11th
Cir. 2018). In most situations, individuals who, like
Plaintiff, receive a pension from noncovered work
receive a reduced monthly retirement insurance
benefit pursuant to the Social Security Act’s windfall
elimination
provision
(WEP),
42
U.S.C.
§ 415(a)(7)(A). “[IT]he WEP was enacted to eliminate
a windfall to individuals . . . who are eligible to
receive pensions based on both covered and
noncovered employment.” Holmes v. Comm’r, No. 964088, 1997 WL 570387, at *2 (6th Cir. Sept. 11,
1997). There are a number of exceptions to the WEP,
and Plaintiff claimed that he fell within the
exception for “a payment based wholly on service as
a member of a uniformed service” (the “uniformed
services exception”). 42 U.S.C. § 415(a)(7)(A)(11).
At the time Plaintiff applied for retirement
benefits, only the Eighth Circuit had addressed
whether the uniformed services exception applies to
dual status technicians such as Plaintiff. In Peterson
v. Astrue, 633 F.3d 633 (8th Cir. 2011), the court
found the meaning of the uniformed services
exception “clear and unambiguous” and concluded
that a National Guard dual status technician is
covered by the uniformed services exception. The
court reached this decision notwithstanding that
under the National Guard Technician Act, Pub. L.
No. 90-486, § 2(1), 82 Stat. 755, 755-56, codified as 32

19a
U.S.C. § 709, a dual status technician is defined as a
“Federal civilian employee” who “is assigned to a
civilian position as a technician in the organizing,
administering, instructing, or training of the
Selected Reserve or in the maintenance and repair of
supplies or equipment issued to the Selected Reserve
or the armed forces.” 10 U.S.C. § 10216(a)(1)(C). The
court reasoned that because a dual status technician
must maintain his or her membership in the
National Guard and the military grade for his or her
position and is required by statute to wear the gradeappropriate uniform while on duty, a dual status
technician performs work “as a member of a
uniformed service.” Id. at 637.
Following
Peterson,
the
Social
Security
Administration (SSA) issued Acquiescence Ruling
12-1(8) (AR 12-1(8)), 77 Fed. Reg. 51842-01 (Aug. 27,
2012), correction published 77 Fed. Reg. 54646-01
(Sept. 5, 2012), effective August 27, 2012. AR 12-1(8)
explains that the SSA will apply Peterson only to
eligible Social Security old-age or disability
applicants (dual status technicians) who are
permanent residents of a State within the Eighth
Circuit. AR 12-1(8) further explains that for all
applicants outside of the Eighth Circuit, the SSA will
adhere to its policy that the WEP applies to persons
who were employed in a noncovered civilian capacity
as a National Guard dual status technician.
On September 7, 2018, after Plaintiff filed his
complaint in this case, the Eleventh Circuit issued
its decision in Martin v. Social Security
Administration, Commissioner, 903 F.3d 1154 (11th
Cir. 2018), which disagreed with Peterson and held
that National Guard dual status technicians are not

20a
covered by the uniformed services exception. The
court, focusing on the word “wholly” in the exception,
found the SSA’s interpretation most persuasive:
The critical issue is . . . how the word “wholly”
interacts with the nature of the dual status
technician position. By its plain meaning,
“wholly” limits the payments covered by the
uniformed services exception: even if dual
status technician is essentially military, it is
not subject to the uniformed services exception
if it is not wholly military in nature.
Accounting for all of the features of the dual
status technician role, we find it difficult to
conclude that a dual status technician wholly
performs that role as a member of the
National Guard.
Id. at 1166. Among other things, the court observed
that dual status technicians perform much of their
work as federal civilian employees. Id. at 1165.
On December 4, 2018, Magistrate Judge Phillip
Green issued a Report and Recommendation (R & R)
recommending that the Court affirm the
Commissioner’s decision applying the WEP to
Plaintiff’s retirement benefits. (ECF No. 20.) The
magistrate judge noted the different outcomes in
Peterson and Martin, found that “Martin provides a
more detailed and persuasive analysis of why the
WEP exception does not apply,” and recommended
that this Court adopt the Martin analysis. (Id. at
PagelD.281.) In addition, the magistrate judge
recommended that the Court reject Plaintiff’s
argument that application of AR 12-1(8) violates
Plaintiffs due process and equal protection rights.
(Id. at PagelD.283-84.)

21a
Plaintiff has filed Objections to the R & R (ECF No.
21), and the Commissioner has filed a response.
(ECF No. 22.) Pursuant to 28 U.S.C. § 636(b), upon
receiving objections to a report and recommendation,
the district judge “shall make a de novo
determination of those portions of the report or
specified proposed findings or recommendations to
which objection is made.” After conducting a de novo
review of the R & R, Plaintiff’s Objections, the
Commissioner’s response, and the pertinent portions
of the record, the Court concludes that the R & R
should be adopted and the Commissioner’s decision
affirmed.
First, as to whether Plaintiff falls within the
uniformed services exception to the WEP, the Court
has reviewed Peterson and Martin and concurs with
the magistrate judge that Martin’s analysis—
particularly its focus on the word “wholly” as
requiring that all of the claimant’s employment must
have been military in nature—is not only more
persuasive than the Peterson court’s analysis, but at
bottom is based on the correct application of the
language of the exception. At least two other district
courts have likewise found Martin more persuasive
than Peterson. See Newton v. Comm’r of Soc. Sec.,
No. 18-751(RMB), 2019 WL 1417248, at *4 (D. N.J.
Mar. 29, 2019) (“This Court agrees with the
reasoning of the Eleventh Circuit [in Martin].”);
Kientz v. Berryhill, No. 17-4067-SAC, 2018 WL
4538480, at *2 (D. Kan. Sept. 21, 2018) (adopting the
opinion and analysis in Martin). Accordingly, the
Commissioner properly applied the WEP.
With regard to Plaintiffs constitutional claims, the
Court concurs with the magistrate judge that they

22a
lack merit. As the magistrate judge correctly
observed, the Commissioner did not apply AR 12-1(8)
to Plaintiff. (ECF No. 9-2 at PagelD.42.) Plaintiff
fails to cite any case that supports such a claim.
While it is true that a circuit split did not exist at the
time Plaintiff filed his complaint in this case, the
SSA was not precluded from taking a different
position outside of the Eighth Circuit. See Roberts v.
Holder, 745 F.3d 928, 933-34 (8th Cir. 2014)
(“Disagreements among the courts of appeal, or
between an agency and one or more of the courts of
appeal, will not by itself create an equal protection
violation.”). In short, the magistrate judge’s
observation that “[t]he Peterson and Martin decisions
provide a good illustration why the initial circuit to
address an issue does not compel the Commissioner
to accede to that determination in every other
circuit,” was entirely apt. Therefore,
IT IS HEREBY ORDERED that the Magistrate
Judge’s Report and Recommendation issued
December 4, 2018 (ECF No. 20) is APPROVED
AND ADOPTED as the Opinion of this Court.
Plaintiff’s Objection (ECF No. 21) is OVERRULED.
IT IS FURTHER ORDERED that
Commissioner’s decision is AFFIRMED.

the

A separate judgment will issue.
This case is concluded.
Dated: May 22, 2019

/s/ Gordon J. Quist
GORDON J. QUIST

UNITED STATES DISTRICT JUDGE

23a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISON
_______
DAVID BABCOCK,
Plaintiff,
v.
COMMISSIONER OF SOCIAL SECURITY,
Defendant.
_________
Case No. 1:18-cv-255
_________
Honorable Gordon J. Quist
_________
December 4, 2018
_________
REPORT AND RECOMMENDATION
_________
This is a social security action brought under 42
U.S.C. § 405(g), seeking review of a final decision of
the Commissioner of Social Security, rejecting
plaintiff’s
challenge
to
the
Commissioner’s
calculation of his retirement benefits under Title II
of the Social Security Act. On September 30, 2014,
plaintiff applied for retirement insurance benefits.
(ECF No. 9-2, PageID.77-78). On October 19, 2014,

24a
the Administration granted his application, but
reduced his benefits under the windfall elimination
provision. (Id. at PageID.94-96). Plaintiff requested
reconsideration and the Administration upheld the
initial determination. (Id. at PageID.87-88, 122-32).
On September 15, 2016, plaintiff received a hearing
before an Administrative Law Judge (ALJ). (Id. at
PageID.142-60). On September 28, 2016, the ALJ
issued his decision upholding the Administration’s
calculation and holding that the claimed uniformed
services exception to the windfall elimination
provision did not apply. (Id. at PageID.48-51).
On November 7, 2017, the Appeals Council granted
plaintiffs request for review. (Id. at PageID.137-41).
On January 11, 2018, the Appeals Council issued its
decision finding that plaintiff did not meet the
requirements of Acquiescence Ruling 12-1; that none
of the windfall elimination provision exceptions
applied; and that the windfall elimination provision
was correctly applied to plaintiffs retirement
benefits. (Id. at PageID .42-44).
Plaintiff timely filed a complaint seeking judicial
review of the Commissioner’s decision. (ECF No. 1).
Plaintiff argues that the Commissioner’s decision
should be overturned on the following grounds:
I.

1

Did the Appeals Councils1 correctly conclude
that the Windfall Elimination Provision
(WEP) applies to plaintiffs pension as a dual
status technician?

Because the Appeals Council
substituted Appeals Council in
statement of errors where the ALJ
Apfel, 530 U.S. 103, 106-07 (2000)

granted review, I have
each place in plaintiffs
is mentioned. See Sims v.
(“[I]f the Appeals Council

25a
II.

Does the Plaintiffs work as a dual status
technician qualify as an exception to the
Windfall Elimination Provision (WEP)?

III. Did the Appeals Council’s application of
Acquiescence Ruling 12-1 to deny Plaintiffs
exception to the WEP because he was not a
resident of the Eighth Circuit violate Plaintiffs
Constitutional Due Process and Equal
Protection rights?
(Plf. Brief at vi, ECF No. 17, PageID.222). For the
reasons set forth herein, I recommend that the Court
affirm the Commissioner’s decision.
Standard of Review
When reviewing the grant or denial of social
security benefits, this court is to determine whether
the Commissioner’s findings are supported by
substantial evidence and whether the Commissioner
correctly applied the law. See Elam ex rel. Golay v.
Commissioner, 348 F.3d 124, 125 (6th Cir. 2003);
Buxton v. Halter, 246 F.3d 762, 772 (6th Cir. 2001).
Substantial evidence is defined as “such relevant
evidence as a reasonable mind might accept as
adequate to support a conclusion.” Richardson v.
Perales, 402 U.S. 389, 401 (1971).
The Appeals Council’s Decision
The Appeals Council found that plaintiff “started
receiving retirement insurance benefits for October
2014.” (ECF No. 9-2, PageID.43). He was “already
receiving a pension for work that was not covered by
Social Security in 2014.” (Id.). Plaintiff did not meet
grants review of a claim, then the decision that the Council
issues is the Commissioner’s final decision.”).

26a
the requirements of Acquiescence Ruling 12-1
because he did not live in a state covered by that
ruling. (Id.). None of the exceptions to the windfall
elimination
provisions
applied.
(Id.).
The
Administration correctly applied the windfall
elimination provision to plaintiffs retirement
benefits. (Id. at PageID.43-44).
Discussion
The “windfall elimination provision” (WEP) reduces
the benefits received by certain individuals who also
receive pensions for work that did not require them
to pay social security taxes. See 42 U.S.C. § 415(a)(7);
Petersen v. Astrue, 633 F.3d 633, 634 (8th Cir. 2011).
“ ‘The WEP was enacted in 1983 to eliminate the
unintended benefits windfall that occurs when
workers who split their career between covered
employment (required to pay Social Security taxes)
and non-covered employment (exempt from Social
Security taxes).’ ” Parker v. Colvin, 640 F. App’x 726,
728 (10th Cir. 2016) (quoting Petersen, 633 F.3d at
634); see also Holmes v. Commissioner, No. 96-4088,
1997 WL 570398, at *2 (6th Cir. Sept. 11, 1997)
(“[T]he WEP was enacted to eliminate a windfall to
individuals, such as [plaintiff], who are eligible to
receive pensions based on both covered and
noncovered employment, and the provision has been
upheld against challenges under the Fourth and
Fifth Amendments because it is rationally related to
the achievement of that legitimate goal.”).
1.
There are exceptions to the windfall elimination
provision. Plaintiff argues that the Commissioner
committed reversible error by finding that the

27a
pension he receives for employment as a dual status
technician with the Michigan National Guard did not
fall within subsection 415(a)(7)(A)(III)’s exception for
a “payment based wholly on service as a member of a
uniformed service.” (Plf. Brief at 5-23, ECF No. 17,
PageID.227-45; Reply Brief at 1-5, ECF No. 19,
PageID.272-76).
A circuit split has developed on this issue, with the
Eighth Circuit holding that the above-referenced
WEP exception applies to dual status technicians
and the Eleventh Circuit holding that it does not.
Compare Martin v. Social Security Admin.,
Commissioner, 903 F.3d 1154 (11th Cir. 2018) with
Petersen v. Astrue, 633 F.3d 633 (8th Cir. 2011). I
find the Eleventh Circuit’s recent decision in Martin
provides a more detailed and persuasive analysis of
why the WEP exception does not apply. I recommend
that the Martin analysis be adopted by this Court.
The Eighth Circuit’s analysis in Petersen is very
brief. It declined to accept the Social Security
Administration’s interpretation of the exception
because it found that the “meaning and intent of
section 415(a)(7)(A) [was] clear and unambiguous.”
633 F.3d at 636. The Eighth Circuit emphasized that
dual status technicians are required to maintain
National Guard membership and to wear uniforms
while on duty. Id. at 636-37. The Eighth Circuit
stated
that
accepting
the
Administration’s
interpretation would require it to read a “military
duty” requirement that did not appear in the statute.
Id. at 637-38.
In Martin, the Eleventh Circuit held that the
exception did not apply to dual status technicians. It
rejected the Eighth Circuit’s interpretation because

28a
it failed to adequately address the statutory
limitation that the payment be based “wholly” on
service as a member of a uniformed service. 903 F.3d
at 1168. The Eleventh Circuit observed that
“Congress consistently refers to dual status
technician employment as a civilian position.” Id. at
1165. The Eleventh Circuit found that the critical
issue was how the word “wholly” interacts with the
nature of the dual status technician position. Id. at
1166. “Even the use of the title ‘dual status’ suggests
that dual status technicians are employed not just in
their capacity as members of the National Guard.”
Id. “By its plain meaning, ‘wholly’ limits the
payments covered by the uniformed services
exception: even if dual status technician employment
is essentially military, it is not subject to the
uniformed services exception if it is not wholly
military in nature.” Id. The Eleventh Circuit held
that, given the civilian elements and dual nature of
the role of a dual status technician, and the
deference
owed
to
the
Administration’s
interpretation, it was affirming the Commissioner’s
decision finding that payments based on the
plaintiffs employment as a dual status technician did
not qualify for the WEP exception. Id. at 1168.
The District of Kansas recently considered the
same circuit split. See Kientz v. Berryhill, No. 174067, 2018 WL 4538480 (D. Kan. Sept. 21, 2018). It
rejected the Eighth Circuit’s approach in Petersen
and found the Eleventh Circuit’s analysis in Martin
to be more persuasive. The district court “agree[d]
with the court’s analysis in Martin that given the
dual nature of the role” of a dual status technician
and its “civilian elements,” the employment was not

29a
“performed wholly as a member of a uniformed
service.” 2018 WL 4538480, at *2. The WEP applied
to the claimant’s retirement benefits and the
uniformed services exception did not apply. Id.
I find that the Eleventh Circuit’s decision in Martin
provides compelling analysis of the issue before the
Court, and I recommend that it be followed. I
recommend that the Commissioner’s decision be
affirmed.
2.
Plaintiff argues that “application” of Acquiescence
Ruling 12-1(8) violates his rights under the Due
Process and Equal Protection Clauses. (Plf. Brief at
23-24, ECF No. 17, PageID.245-46; Reply Brief at 5,
ECF No. 19, PageID.276).
The short answer is the Appeals Council never
applied this acquiescence ruling to plaintiff’s claim.
It held that plaintiff did not meet the requirement of
Acquiescence Ruling 12-1(8) because he did not live
in a state covered by that ruling. (ECF No. 92,
PageID.43).
Acquiescence
Rulings
explain
how
the
Administration will apply a holding by a United
States Court of Appeals that is at variance with the
Administration’s national policies for adjudicating
claims. See Hagans v. Commissioner, 694 F.3d 287,
301 (3d Cir. 2012). The Administration issued
Acquiescence Ruling 12-1(8) in response to the
Eighth Circuit’s Petersen decision. The ruling is
limited to permanent legal residents of a state within
the Eighth Circuit. The Administration only applies
Petersen’s interpretation within the Eighth Circuit,
and it continues to treat dual status technicians as

30a
ineligible for the exception everywhere else. See
Social Security Acquiescence Ruling (AR)12-1(8), 77
Fed. Reg. 51842 (Aug. 27, 2012), as corrected by 77
Fed. Reg. 54646 (Sept. 5, 2012) (reprinted at 2012
WL 3638258 and 2012 WL 3807595); see also
Cochran v. Commissioner, No. 1:13-cv-2628, 2014
WL 6604458, at *3 (N.D. Ohio Nov. 20, 2014)
(Acquiescence Ruling 12-1(8) applies “only to dualstatus retirees who reside in states located within
the Eighth Circuit[.]”).
Acquiescence Ruling 12-1(8), in accordance with 20
C.F.R. § 404.985, only applies in the circuit that
issued the holding that conflicts with the
Commissioner’s interpretation of the Social Security
Act. Plaintiffs equal protection and due process
claims based on the acquiescence ruling are without
merit. See Loudermilk v. Barnhart, 290 F.3d 1265,
1268 n.2 (11th Cir. 2002); see also Habibi v. Holder,
673 F.3d 1082, (9th Cir. 2011) (“No court has ever
held that the mere existence of a circuit split on an
issue of statutory interpretation violates due process
or equal protection[.]”). The Petersen and Martin
decisions provide a good illustration why the initial
circuit to address an issue does not compel the
Commissioner to accede to that determination in
every other circuit.
Recommended Disposition
For the reasons set forth herein, I recommend that
the Court affirm the Commissioner’s decision.

31a
Dated: December 4, 2018

/s/ Phillip J. Green
PHILLIP J. GREEN
United States
Magistrate Judge

32a
APPENDIX D
_________
SOCIAL SECRITY ADMINISTRATION OFFICE OF
DISABILITY ADJUDICATION AND REVIEW
_________
TRANSCRIPT
_________
In the case of: David Babcock, Claimant
_________
Account number: 374-60-3136
_________
Claim for: Retirement Benefits
_________
Transcript of Mr. Babcock’s Testimony
_________
Hearing Held
at: Lansing, Michigan
on: September 15, 2016
by: Lawrence E. Blatnik
(Administrative Law Judge)
_________
APPEARANCES:
David Babcock, Claimant
Justin Barry, Attorney for Claimant

33a
HERITAGE REPORTING CORPORATION
Official Reporters
1220 L Street, N.W., Suite 206
Washington, D.C. 20005-4018
(202)-628-4888
contracts@hrccourtreporters.com
_________
PROCEEDINGS
***
[Transcript of Mr. Babcock’s Testimony, pp. 1-19]
***
OPENING STATEMENT BY ADMINISTRATIVE
LAW JUDGE
HR: This is the hearing of David Babcock, 374-603136, held before ALJ Blatnik in Lansing, Michigan
on September 15, 2016. The claimant is represented
by Justin Barry. The hearing recorder is Deborah
Galley [PHONETIC].
ALJ: We’re going to get started then. This
proceeding involves the issues relating to the receipt
of retirement insurance benefits by David Brian
Babcock, Social Security number 374-60-3136. This
hearing is being held after due notice on this 15th
day of September, 2016 at approximately 9:00 a.m. in
Lansing, Michigan. I am -- my name is Lawrence E.
Blatnik, I am the administrative law judge assigned
to conduct the hearing and decide the case. The
claimant is present and represented. Counsel, could
you please enter your appearance for the record?
ATTY: Yes. Justin Barry on behalf of the claimant.
ALJ: Okay. Seated to my right is Deborah Galley,
the hearing monitor. She will be taking notes,

34a
operating the recording equipment and assisting me
during the hearing. Now, the law requires that all
testimony provided here be given under oath, so just
in case we need to take some testimony for you -from you, Mr. Babcock, if you could please raise your
right hand so I can administer the oath to you.
(The oath was administered.)
ALJ: Counsel, have you had an opportunity to
discuss the issues in this case with your client?
ATTY: Yes, we have.
ALJ: Waive any additional statement as to the
issues?
ATTY: I don’t want to waive a -- can you give a
statement from your end of the spectrum?
ALJ: Okay, well, I guess the -ATTY: I know from our end, but -ALJ: The issue before me is whether the Windfall
Elimination Provision was properly applied in this
case to reduce the level of retirement benefits
received by the claimant based on some work he had
done as the, I guess as a -- in the reserves, the
National Guard during the period from 1975 to 2009.
As you know, the Administration’s position is that
the Windfall Elimination Provision does apply to
that type of employment.
However, there was a decision in the Eighth
Circuit, Peterson B. Astrew [PHONETIC], which
you’ve cited in your pre-hearing memorandum,
which decided that that provision should not be
applicable to the type of work that was done by Mr.
Babcock in the past. The Administration recognize
the applicability of that ruling, and is following it in

35a
cases -- in states that are within the jurisdiction of
the 8th circuit; the problem in this case is Mr.
Babcock was a resident of Michigan, which is -- as
you’re -- I’m sure you’re well aware, within the sixth
circuit, outside the boundaries of the eighth circuit.
So the Administration’s position is that the -they’re going to continue to follow their previously
stated position; they’re not bound to apply those -the Peterson B. Astrew holding in this particular
type of situation.
ATTY: Which -- yeah, we understand that. Is there
any sort -- you say their position; is there any sort of
ruling or?
ALJ: Well, there is an acquiescence ruling, 12.18,
which was issued in -- on August 27, 2012. I have
that in front of me; I’d be happy to make a copy of it
available to you. I mean, I’m sympathetic with your
client’s position, and would like to be able to do
something to help him, but I’m kind of bound by the
law that I’m -- the Administration is telling me I
need to follow in this case. It’s essentially a legal
issue; I don’t -- I don’t really see a need to take any
testimony from the claimant. You’re certainly free to
-ATTY: Yeah. We would like to put some testimony
on the record, as I anticipate this case going up on
appeal if you’re unable to give a favorable, so.
ALJ: Okay.
ATTY: But our argument would be, obviously, that
those -- the two poms [PHONETIC], the Windfall
Elimination Provision accepts -- let’s see, where’s the
exact language? It’s RS 00605.362, and Section --

36a
let’s see here -- E applies to military service and
military reservists.
ALJ: Right.
ATTY: And then RS 00605.383, the exclusion of
military reservist from WEP, and we would argue
that that does apply in this case.
ALJ: Okay.
ATTY: So we’d like to put the factual basis as to
why that applies onto the record.
ALJ: Okay, well you can go ahead and proceed, and
ask your client any questions you may feel you need
to ask him at this point.
ATTY: Okay.
(Whereupon, DAVID BABCOCK, the claimant,
having first been duly sworn, testified as follows:)
EXAMINATION OF THE CLAIMANT BY THE
ATTORNEY:
Q

State your name for the record.

A

David Brian [PHONETIC] Babcock.

Q

And when did you join the service?

A

I joined the service in September 1970.

Q And tell us a little bit about your service with
the National Guard.
A
I joined the National Guard in 1970 as an
enlisted soldier. Became an -- was trained as an
aircraft mechanic. 1975 of -- would be March, I went
to work full-time under a dual status as it’s noted,
which demands that you be a member of the
Michigan National Guard if you’re working for them
at the time. And if at the time, you’re not a member

37a
of the National Guard or the Reserve, you will lose
your job within 30 days.
I worked with them for approximately three and a
half years as a aircraft mechanic enlisted soldier, at
which time I decided to go to -- attend flight school,
become an officer. At which point I had to sign a
letter stating that if I became an officer, would no
longer qualify for enlisted person’s job -- mechanic -at which point I would lose, my job within 30 days
after becoming an officer.
I decided to go to flight school and become an
officer, came back, was notified I was losing my job
in 30 days, luckily found another job that was -- and
had to apply -- and received another job within the
organization as a pilot. I worked as a pilot until
January 2009, at which point I left the National
Guard and left my -- my job as a technician.
Q So at any point, if you would’ve lost your
National Guard status, would you have been able to
maintain your employment?
A
Absolutely not. A number of my friends who
were removed from the National Guard for one
reason or another, did not meet height/weight
standard but could still perform their job during the
week, lost their jobs when they were dismissed from
the military, not for any action that was necessarily
adverse. Also, they had some people lose their job
just because of the fact that they increased in rank,
or had gone 20 years in the National Guard and were
no longer retained in the National Guard. At which
point, they were allowed to -- they were fired from
the -- their weekly job, and were allowed to draw
unemployment.

38a
ALJ: Where exactly were you performing this
work?
CLMT: Grand Ledge, actually.
ALJ: Okay.
CLMT: I worked in Grand Ledge the whole period,
38 years. Yeah.
BY THE ATTORNEY:
Q Okay. And you had to wear your uniform
while you were -A
I have a picture of me standing in front of a
helicopter in Grand Ledge, just as I’d go to work
everyday.
Q

Okay.

A
With my rank and all my unit insignia on it. If
you were a civilian doing this job and there were
Department of -- we call them DACs, they would
wear the same uniform and the only thing they
would have would be their name on their badge, they
wouldn’t have their rank. I had to wear my rank at
all times, to loop people, call people sir, yes, sir when
refer to higher ranking officers.
It’s -- we actually -- I gave Mr. Barry the copy of
what I was required -- what was required of a dual
status technician, and you have to perform all the
military courtesies, wear your rank, wear the
uniform. If I went outside other than on the flight
line, as we called it, where the helicopters were, I
had to wear my hat, salute as I passed the flags,
salute officers. There was no difference between me
and someone on active duty or on post.
ALJ: Okay.
BY THE ATTORNEY:

39a
Q Tell us a little bit about, when you say rankrelated job positions. I understand that there’s two
sides of it, so can you explain to the judge a little bit
about that?
A
Okay. If you just think about in the military,
enlisted soldiers, I will say, do the hard -- well, we’ll
say do the hard labor: the lifting and the shoveling.
You have to -- but an officer, for an example, is not
allowed to be a mechanic on a helicopter turner
wrench. And therefore, when I changed although I
was hired on as a mechanic, when I became an
officer, I no longer could be a mechanic.
The other thing would be that if you were a
lieutenant or a captain or a major -- I happened to be
a warrant officer -- a world warrant [PHONETIC]
officer, if you were an instructor pilot and that was
your job title during the week, you could be a
lieutenant or a captain, or you could be a warrant
officer 1, 2 or a 3 if you were an instructor, and you
have to progress in the service.
A captain, once you become a captain, six -- he has
three years to make major; if he doesn’t make major
in three years, he has another three years. If he
doesn’t make major after six years of being a captain,
they thank him for his service and he’s removed from
the military. And you either progress or you’re out.
ALJ: So you have to keep moving up the ladder.
CLMT: If you don’t move up, you move out.
ALJ: And when were you designated as a warrant
officer?
CLMT: I became a warrant officer in would be
March of 1979. I made my ranks on all dates.

40a
ALJ: So how did your job duties -- you said you
couldn’t become a -- you couldn’t be a mechanic after
you became an officer, so how did your job duties
change after that?
CLMT: Oh, after I became -- after I became an
officer, I actually -- my boss immediately sent me off
to another school, and I became a test pilot, along
with the -- I was already a pilot; I became a test
pilot, one of the youngest ones in the state, but when
I came back, he moved me into a position that was
an officer’s position, which was an inspector of
aircraft.
ALJ: I see.
CLMT: And I fulfilled that for a few years, then I
became an instructor pilot. He kept sending me to
military schools throughout my career. In fact, my
last military school was six months prior to
retirement, so I’m -ALJ: Where was that conducted? Where did you go
for the military -CLMT: I went to Fort Rucker a lot. I also went to
Arizona, Tucson, Arizona, which was the western
area training site. Eastern area training site in
Pennsylvania, Fort Eustis, Virginia, those are just
some I can think of off the top -- I went to school so
many -ALJ: So it sounds like you got a lot of training
during your [INAUDIBLE], yeah.
CLMT: I did. I went to school a lot. My wife was
getting a little tired of it.
BY THE ATTORNEY:

41a
Q And tell us about the letter that you were
required to sign when you went to flight school.
A
Actually, I actually had a -- it was a
statement: you are aware that becoming an officer no
longer qualifies you for your mechanics position. You
will be -- you’ll have to give up your job, you’ll be
fired, basically. And I had to sign a statement that I
acknowledged that fact, and -- but I decided I wanted
to be a pilot more than I wanted to -- I figured I’d go
to work in GM if I had to, you know. So.
Q So your job was -- inexplicably tied to your
service in the National Guard?
A
Correct. I have to be -- it actually states that
you’re supposed to be a member of the unit that the
weekly day job supports.
Q Okay. What about these military review
boards?
A
After you reach 20 years of service and are
eligible for retirement from the military, although
you will not -- if you’re a National Guardsman, you
don’t receive -- and which I reached at age 38 or 39, I
mean -- you cannot collect military retirement until
age 60 from the National Guard, unlike the active
duty.
When I reached 20 years of service, enlisted and
officer combined, your records go before a review
board every year and it’s a military review board,
nobody from the technician’s side. And they look at
your records, determine whether or not they’re going
to keep you, if you’re an officer, one more year, if
you’re enlisted, two more years.
If they determine that they’re not going to keep you
-- in other words, you haven’t continued schooling,

42a
progressed in rank fast enough, gotten any awards,
then they just go, okay. Put you in pile A and they
send you a letter and it said, thank you for your
service, you’re no longer needed in the Michigan
National Guard, saw those letters. I didn’t get one; I
did that for 18 years. Every year I had to sweat it out
come March.
Q And if you were terminated from the National
Guard, what would happen with your position?
A
30 days later you were terminated from your
technician job.
Q So you’ve read through the poms rule 605.383
excludings for military reservists? I’m just going to
read an excerpt that says, the Windfall Elimination
Provision no longer applies to benefits or retired or
disabled workers receiving military pensions based
in part on inactive duty including weekend drills
from 1957 to 1987. Was your pension based on -- in
part on inactive duty?
A
All my Social Security money that was
deducted from my checks came from my military
paycheck. It was solely from that until after I retired
from my dual status technician job in the military.
After that, I went into the civilian world and flew
med evac helicopter for Sparrow Hospital here in the
city for approximately four years and then two years
in Saginaw for St. Mary’s Hospital. So I did have
some Social Security deductions after I’d retired out
of the service.
ALJ: I see.
CLMT: But prior to that, all the money that was
deducted for Social Security came from military
wages.

43a
BY THE ATTORNEY:
Q All right. And your civilian job, did that pay
overtime?
A
No. It did not pay overtime. It paid what they
called compensatory time, which meant that if I
worked an hour over, I was supposed to get an hour
off the next day, which didn’t necessarily happen, but
a -Q

Did you have to work weekends sometimes?

A
I had to work whenever my boss said. Yes, I
worked weekends quite a bit.
Q So how were you compensated if your civilian
pay wouldn’t pay you on those weekends that you
were working?
A
They were supposed to give me time -- equal
time off during the week.
Q

But they didn’t?

A
Well, they were -- they -- you know, unless the
mission -- as they called it, the mission dictated, they
would normally give -- grant me the time off, you
know.
Q

Did they ever write it off as military time?

A Yes. Quite often, what they would do is ask us
to take additional training time -- military training
time as opposed to taking time off. They would ask
us to work evening -- we worked evenings. I would
normally work two to three evenings after I
completed my eight-hour shift during the day. A
week. It was not unusual. They told us -- by the time
I retired, we had 72 additional training periods a
year, which is more than one a week, of course, that
we had to do besides our normal weekend drills as a

44a
pilot. And they encouraged us, was the word, to use
those for our overtime work.
Q And then you talked about that National
Guard handbook, I think it was 32 USC Section 709,
technicians employment use status. Except as
authorized in Subsection C, a person employed under
Subsection A must meet the following requirements:
be a military technician; be a member of the
National Guard; hold a military grade specified by
the secretary concerned for that position; and while
performing military or performing duties as a
military technician (dual status), wear the uniform
appropriate for members grade component of the
armed forces. You did all those things?
A

Yes, I did.

Q Anything else we haven’t talked about that
you’d like the judge to know?
A It is not legally pertinent, but it’s just my
opinion: they hired me under one contract and then
changed it 20 years after I’d been working for them,
and didn’t even tell me about it. I mean, it wasn’t
really something -- the WEP wasn’t something that
they came out and gave a briefing, said, hey, by the
way, all you guys have been working here are now -we’re going to apply this to your pension. I found
that out when I got ready to retire.
Q In fact, they made a specific exclusion for
people like you.
A

Right.

Q And that was that -- in -- or the pom that we
had read earlier.

45a
A
Correct. I mean, I was a -- as far as I was
concerned, I was in the military. They just were
paying me out of one pot to do one thing, and one pot
to do another. Which the government has a tendency
to do a lot.
Q And going back to the same technicians’
handbook, Section F1A states that a person
employed under Section A who is a military
technician and otherwise subject to requirements of
Subsection B who is separated from the National
Guard or ceases to hold the military grade specified
by the secretary concerned for that position, shall be
promptly separated from military technician dual
status employment by the adjunct general
jurisdiction concerned. That was true.
A

That’s true. It’s still happening today.

Q

And you saw that --

A
We’ve got three -- eight people happened this
past year, in 2015.
Q And you saw that happen while you were
there, too?
A
Oh, many times. Many of my friends were
separated.
ATTY: I don’t have any other questions.
ALJ: All right. One other just procedural matter
I’m going -- we didn’t address this at the beginning of
the hearing, but I’m going to admit into the record
the exhibits contained in the claimant’s case file.
They aren’t numbered, they’re basically just
jurisdictional documents and his work record.
Well, as I indicated at the beginning of the hearing,
I mean, the -- under this acquiescence ruling that I

46a
am bound to follow, there are three criteria for when
the -- Windfall Elimination Provision is not applied
to people in your client’s position. He seems to meet
two of the criteria, but the -- unfortunately the third
one is you have to have permanent legal residence in
one of the states within the eighth circuit: Arkansas,
Iowa, Minnesota, Missouri, Nebraska, North Dakota
or South Dakota, so I know it seems a little bit unfair
to determine whether that WEP applies based on
your state of residence, but unfortunately that’s the
law as it exists currently.
I wish I could -- would be able to help you, but I’m
unfortunately going to -- bound to follow the law as it
exists at this time. I certainly -- I understand that
part of what you’re doing here is to provide a basis
for appeal so you can pursue this at federal court,
and you know, maybe you can get a favorable ruling
by some judge at a higher level than I am.
But I’ll certainly consider all the evidence that
you’ve laid out today, but it’s really a legal
impediment that I have to overcome to overrule the
Administration’s ruling in this case. So we’ll do our
best to get a written decision out to you as soon as
you can, and then you can pursue whatever legal
avenues that you feel are appropriate after that.
CLMT: There is one other thing I forgot.
ALJ: Okay.
CLMT: That I’d like to put on record, and that was
as a federal employee, there are two types of federal
employees: competitive and dual status. And the
dual status means -- is what I am.
ALJ: That’s what you were, right.

47a
CLMT: Except actually it’s not dual status, it’s
called excepted.
ALJ: Okay.
CLMT: And that’s the military -ALJ: Excepted service?
CLMT: Excepted service, exactly. As opposed to
competitive. And which would be people that work
for the Social Security Administration, for an
example, are competitive.
ALJ: Right. Yeah. As a long-term federal employee,
absolutely, yeah, I understand what you’re talking
about there.
CLMT: Just forgot about that. Put it in.
ALJ: All right. Well, I appreciate your coming in
today and I think we have all the evidence we need
to provide a basis for a decision, so we’ll conclude the
hearing and I wish you the best of luck, Mr. Babcock.
CLMT: Thanks, Your Honor.
ATTY: Thank you.
ALJ: All right.
CLMT: I appreciate the time.
ALJ: Okay.
(The hearing closed at 9:30 a.m., on September 15,
2016.)

48a
APPENDIX E
_________
CERTIFICATE OF RELEASE OR DISCHARGE
FROM ACTIVE DUTY
_______
1. NAME (Last First
Middle)

BABCOCK, DAVID BRYON

2. DEPARTMENT,
COMPONENT AND
BRANCH

ARMY / ARNGUS / AV

3. SOCIAL SECURITY
NUMBER

000 – 00 – 3136

4a. GRADE, RATE OR
RANK

CW5

b. PAY GRADE

W05

5. DATE OF BIRTH
(YYYYMMDD)

19510915

6. RESERVE
OBLIGATION
TERMINATION DATE
(YYYYMMDD)

00000000

7a. PLACE OF ENTRY
INTO ACTIVE DUTY

GRAND LEDGE,
MICHIGAN

b. HOME OF RECORD A
TIME OF ENTRY (City
and state, or complete
address if known)

2440 LEDGEND
WOODS
GRAND LEDGE
MICHIGAN 48837

49a
8a. LAST DUTY
ASSIGNMENT AND
MAJOR COMMAND

0238AVCO F MNT EAC
FC

b. STATION WHERE
SEPARATED

FORT MCCOY, WI
54656-5150

9. COMMAND TO
WHICH
TRANSFERRED

TAG, ARNG MI, 2500
SOUTH
WASHINGTON
AVENUE, LANSING,
MI 48913

10. SGLI COVERAGE
AMOUNT:

$400,000.00

11. PRIMARY
SPECIALTY (List
number, title and years
and months in specialty.
List additional specialty
numbers and titles
involving periods of one
or more years.)

152G0 00 AH-1
ATTACK PILOT(RC) –
26 YRS 9 MOS / / 153A0
00 ROTARY WING
AVIATOR – 26 YRS 9
MOS / / NOTHING
FOLLOWS

12. RECORD OF

YEAR(S)

MONTH(S)

DAY(S)

2004

11

05

2005

11

25

0001

00

21

SERVICE

a. DATE ENTERED AD
THIS PERIOD

b. SEPARATION DATE
THIS PERIOD

c.

NET ACTIVE SERVICE
THIS PERIOD

50a
d. TOTAL PRIOR

0003

07

11

0030

06

03

f. FOREIGN SERVICE

0000

10

07

g. SEA SERVICE

0000

00

00

h. EFFECTIVE DATE OF

2001

12

14

ACTIVE SERVICE

e. TOTAL PRIOR
INACTIVE SERVICE

PAY GRADE

13. DECORATIONS,
MEDALS, BADGES,
CITATIONS AND
CAMPAIGN RIBBONS
AWARDED OR
AUTHORIZED (All
periods of service)

BRONZE STAR (2ND
AWARD) / / ARMY
ACHIEVEMENT
MEDAL (3RD AWARD)
/ / ARMY RESERVE
COMPONENTS
ACHIEVEMENT
MEDAL (2ND AWARD)
/ / NATIONAL
DEFENSE SERVICE
MEDAL (3RD AWARD)
/ / ARMED FORCES
RESERVE MEDAL W/
M DEVICE / / USA
AVIATOR BADGE / /
GLOBAL WAR ON
TERRORISM
EXPEDITIONARY
MEDAL / / GLOBAL
WAR ON / / CONT IN
BLOCK 18

14. MILTARY
EDUCATION (Course

NONE / / NOTHING
FOLLOWS

51a
title, number of weeks,
and month and year
completed)
15a. MEMBER
CONTRIBUTED TO
POST-VIETNAM ERA
VETERANS’
EDUCATIONAL
ASSISTANCE
PROGRAM

 YES

■ NO

b. HIGH SCHOOL
GRADUATE OR
EQUIVALENT
16. DAYS ACCRUED
LEAVE PAID
17. MEMBER WAS
PROVIDED COMPLETE
DENTAL
EXAMINATION AND
ALL APPROPRIATE
DENTAL SERVICES
AND TREATMENT
WITHIN 90 DAYS
PRIOR TO
SEPARATION
18. REMARKS

■ YES
 NO
0.5

 YES

■ NO

SERVICE IN IRAQ
2004/12/28-2005/11/03 /
/ INDIVIDUAL
COMPLETED PERIOD
FOR WHICH
ORDERED TO
ACTIVE DUTY FOR

52a
PURPOSE OF POST
SERVICE BENEFITS
AND ENTITLEMENTS
/ / ORDERED TO
ACTIVE DUTY IN
SUPPORT OF
OPERATION IRAQI
FREEDOM IAW 10
USC 12302 / /
MEMBER HAS
COMPLETED FIRST
FULL TERM OF
SERVICE / / SERVED
IN A DESIGNATED
IMMINENT DANGER
PAY AREA / / CONT
FROM BLOCK 13:
TERRORISM
SERVICE MEDAL / /
NOTHING FOLLOWS
19a. MAILING
ADDRESS AFTER
SEPARATION (Include
ZIP Code)

2440 LEDGEND
WOODS DRIVE
GRAND LEDGE
MICHIGAN 48837

b. NEAREST RELATIVE
(Name and address –
include ZIP Code)

BETTY L BABCOCK
300 E GIER ST
LANSING MICHIGAN
48906

20. MEMBER
REQUESTS COPY 6 BE
SENT TO
MI
.
DIRECTOR OF
VETERANS AFFAIRS

■ YES
 NO

53a
21. SIGNATURE OF
MEMBER BEING
SEPARATED

/s/ David B Babcock

22. OFFICIAL
AUTHORIZED TO SIGN
(Typed name, grade, title
and signature)

/s/ Britnie Rewey
BRITNIE M REWEY,
PRES ASST LEAD

SPECIAL ADDITIONAL INFORMATION (For use
by authorized agencies only)
23. TYPE OF
SEPARATION

RELEASE FROM
ACTIVE DUTY

24. CHARACTER OF
SERVICE (Include
upgrades)

HONORABLE

25. SEPARATION
AUTHORITY

AR 600-8-24, PARA 227A

26. SEPARATION CODE

LBK

27. REENTRY CODE

NA

28. NARRATIVE
REASON FOR
SEPARATION

COMPLETION OF
REQUIRED ACTIVE
SERVICE

29. DATES OF TIME
LOST DURING THIS
PERIOD (YYYYMMDD)

NONE

30. MEMBER
REQUESTS COPY 4
(Initials)

/s/ DBB

54a
APPENDIX F
_________
STATUTORY PROVISIONS INVOLVED
_______
1.

10 U.S.C. § 10216 provides:

Military technicians (dual status)
(a) In general.--(1) For purposes of this section
and any other provision of law, a military technician
(dual status) is a Federal civilian employee who-(A) is employed under section 3101 of title 5 or
section 709(b) of title 32;
(B) is required as a condition of that employment
to maintain membership in the Selected Reserve;
and
(C) is assigned to a civilian position as a
technician in the organizing, administering,
instructing, or training of the Selected Reserve or
in the maintenance and repair of supplies or
equipment issued to the Selected Reserve or the
armed forces.
(2) Military technicians (dual status) shall be
authorized and accounted for as a separate category
of civilian employees.
(3) A military technician (dual status) who is
employed under section 3101 of title 5 may perform
the following additional duties to the extent that the
performance of those duties does not interfere with
the performance of the primary duties described in
paragraph (1):

55a
(A) Supporting operations or missions assigned in
whole or in part to the technician’s unit.
(B) Supporting operations or missions performed
or to be performed by-(i) a unit composed of elements from more than
one component of the technician’s armed force;
or
(ii) a joint forces unit that includes-(I) one or more units of the technician’s
component; or
(II) a member of the technician’s component
whose reserve component assignment is in a
position in an element of the joint forces unit.
(C) Instructing or training in the United States
or the Commonwealth of Puerto Rico or
possessions of the United States of-(i) active-duty members of the armed forces;
(ii) members of foreign military forces (under
the same authorities and restrictions applicable
to active-duty members providing such
instruction or training);
(iii) Department
personnel; or

of

Defense

contractor

(iv) Department of Defense civilian employees.
(b) Priority for management of military
technicians (dual status).--(1) As a basis for
making the annual request to Congress pursuant to
section 115(d) of this title for authorization of end
strengths for military technicians (dual status) of the
Army and Air Force reserve components, the
Secretary of Defense shall give priority to supporting

56a
authorizations for military technicians (dual status)
in
the
following
high-priority
units
and
organizations:
(A) Units of the Selected Reserve that are
scheduled to deploy no later than 90 days after
mobilization.
(B) Units of the Selected Reserve that are or will
deploy to relieve active duty peacetime operations
tempo.
(C) Those organizations with the primary mission
of providing direct support surface and aviation
maintenance for the reserve components of the
Army and Air Force, to the extent that the
military technicians (dual status) in such units
would mobilize and deploy in a skill that is
compatible with their civilian position skill.
(2) For each fiscal year, the Secretary of Defense
shall, for the high-priority units and organizations
referred to in paragraph (1), seek to achieve a
programmed manning level for military technicians
(dual status) that is not less than 90 percent of the
programmed manpower structure for those units and
organizations for military technicians (dual status)
for that fiscal year.
(3) Military technician (dual status) authorizations
and personnel shall be exempt from any requirement
(imposed by law or otherwise) for reductions in
Department of Defense civilian personnel and shall
only be reduced as part of military force structure
reductions.
(c) Information required to be submitted with
annual end strength authorization request.--(1)
The Secretary of Defense shall include as part of the

57a
budget justification documents submitted to
Congress with the budget of the Department of
Defense for any fiscal year the following information
with respect to the end strengths for military
technicians (dual status) requested in that budget
pursuant to section 115(d) of this title, shown
separately for each of the Army and Air Force
reserve components:
(A) The number of military technicians (dual
status) in the high priority units and
organizations specified in subsection (b)(1).
(B) The number of technicians other than
military technicians (dual status) in the high
priority units and organizations specified in
subsection (b)(1).
(C) The number of military technicians (dual
status) in other than high priority units and
organizations specified in subsection (b)(1).
(D) The number of technicians other than
military technicians (dual status) in other than
high priority units and organizations specified in
subsection (b)(1).
(2)(A) If the budget submitted to Congress for any
fiscal year requests authorization for that fiscal year
under section 115(d) of this title of a military
technician (dual status) end strength for a reserve
component of the Army or Air Force in a number
that constitutes a reduction from the end strength
minimum established by law for that reserve
component for the fiscal year during which the
budget is submitted, the Secretary of Defense shall
submit to the congressional defense committees with

58a
that budget a justification providing the basis for
that requested reduction in technician end strength.
(B)
Any
justification
submitted
under
subparagraph (A) shall clearly delineate the specific
force structure reductions forming the basis for such
requested technician reduction (and the numbers
related to those reductions).
(d) Unit membership requirement.--(1) Unless
specifically exempted by law, each individual who is
hired as a military technician (dual status) after
December 1, 1995, shall be required as a condition of
that employment to maintain membership in-(A) the unit of the Selected Reserve by which the
individual is employed as a military technician; or
(B) a unit of the Selected Reserve that the
individual is employed as a military technician to
support.
(2) Paragraph (1) does not apply to a military
technician (dual status) who is employed by the
Army Reserve in an area other than Army Reserve
troop program units.
(3) Paragraph (1) does not apply to a military
technician (dual status) who is employed by the Air
Force Reserve in an area other than the Air Force
Reserve unit program, except that not more than 50
of such technicians may be assigned outside of the
unit program at the same time.
(e) Dual status requirement.--(1) Funds
appropriated for the Department of Defense may not
(except as provided in paragraph (2)) be used for
compensation as a military technician of any
individual hired as a military technician (dual

59a
status) after February 10, 1996, who is no longer a
member of the Selected Reserve.
(2) Except as otherwise provided by law, the
Secretary concerned may pay compensation
described in paragraph (1) to an individual described
in that paragraph who is no longer a member of the
Selected Reserve for a period up to 12 months
following the individual’s loss of membership in the
Selected Reserve if the Secretary determines that
such loss of membership was not due to the failure of
that individual to meet military standards.
(f) Authority for deferral of mandatory
separation.--The Secretary of the Army and the
Secretary of the Air Force may each implement
personnel policies so as to allow, at the discretion of
the Secretary concerned, a military technician (dual
status) who continues to meet the requirements of
this section for dual status to continue to serve
beyond a mandatory removal date, and any
applicable maximum years of service limitation, until
the military technician (dual status) reaches age 60
and attains eligibility for an unreduced annuity (as
defined in section 10218(c) of this title).
(g) Retention of military technicians who lose
dual status due to combat-related disability.-(1) Notwithstanding subsection (d) of this section or
subsections (a)(3) and (b) of section 10218 of this
title, if a military technician (dual status) loses such
dual status as the result of a combat-related
disability (as defined in section 1413a of this title),
the person may be retained as a non-dual status
technician so long as--

60a
(A) the combat-related disability does not prevent
the person from performing the non-dual status
functions or position; and
(B) the person, while a non-dual status
technician, is not disqualified from performing
the non-dual status functions or position because
of performance, medical, or other reasons.
(2) A person so retained shall be removed not later
than 30 days after becoming eligible for an
unreduced annuity and becoming 60 years of age.
(3) Persons retained under the authority of this
subsection do not count against the limitations of
section 10217(c) of this title.
2.

10 U.S.C. § 10217 provides:

Non-dual status technicians
(a) Definition.--For the purposes of this section
and any other provision of law, a non-dual status
technician is a civilian employee of the Department
of Defense serving in a military technician position
who-(1) was hired as a technician before November
18, 1997, under any of the authorities specified in
subsection (b) and as of that date is not a member
of the Selected Reserve or after such date has
ceased to be a member of the Selected Reserve;
(2) is employed under section 709 of title 32 in a
position designated under subsection (c) of that
section and when hired was not required to
maintain membership in the Selected Reserve; or
(3) is hired as a temporary employee pursuant to
the exception for temporary employment provided

61a
by subsection (d) and subject to the terms and
conditions of such subsection.
(b) Employment authorities.--The authorities
referred to in subsection (a) are the following:
(1) Section 10216 of this title.
(2) Section 709 of title 32.
(3) The requirements referred to in section 8401
of title 5.
(4) Section 8016 of the Department of Defense
Appropriations Act, 1996 (Public Law 104-61; 109
Stat. 654), and any comparable provision of law
enacted on an annual basis in the Department of
Defense Appropriations Acts for fiscal years 1984
through 1995.
(5) Any memorandum of agreement between the
Department of Defense and the Office of
Personnel Management providing for the hiring
of military technicians.
(c) Permanent limitations on number.--(1) The
total number of non-dual status technicians
employed by the Army Reserve may not exceed 595
and by the Air Force Reserve may not exceed 90. If at
any time the number of non-dual status technicians
employed by the Army Reserve and Air Force
Reserve exceeds the number specified in the
limitation in the preceding sentence, the Secretary of
Defense shall require that the Secretary of the Army
or the Secretary of the Air Force, or both, take
immediate steps to reduce the number of such
technicians in order to comply with such limitation.
(2) The total number of non-dual status technicians
employed by the National Guard may not exceed

62a
1,950. If at any time the number of non-dual status
technicians employed by the National Guard exceeds
the number specified in the limitation in the
preceding sentence, the Secretary of Defense shall
require that the Secretary of the Army or the
Secretary of the Air Force, or both, take immediate
steps to reduce the number of such technicians in
order to comply with such limitation.
(3) An individual employed as a non-dual status
technician as described in subsection (a)(3) shall not
be considered a non-dual status technician for
purposes of paragraphs (1) and (2).
(d) Exception for temporary employment.--(1)
Notwithstanding section 10218 of this title, the
Secretary of the Army or the Secretary of the Air
Force may employ, for a period not to exceed two
years, a person to fill a vacancy created by the
mobilization of a military technician (dual status)
occupying a position under section 10216 of this title.
(2) The duration of the temporary employment of a
person in a military technician position under this
subsection may not exceed the shorter of the
following:
(A) The period of mobilization of the military
technician (dual status) whose vacancy is being
filled by the temporary employee.
(B) Two years.
(3) No person may be hired under the authority of
this subsection after January 6, 2013.
(e) Conversion of positions.--(1) No individual
may be newly hired or employed, or rehired or
reemployed, as a non-dual status technician for
purposes of this section after September 30, 2017.

63a
(2) By not later than October 1, 2017, the Secretary
of Defense shall convert all non-dual status
technicians to positions filled by individuals who are
employed under section 3101 of title 5 or section
1601 of this title and are not military technicians.
(3) In the case of a position converted under
paragraph (2) for which there is an incumbent
employee on October 1, 2017, the Secretary shall fill
that position, as converted, with the incumbent
employee without regard to any requirement
concerning competition or competitive hiring
procedures.
(4) Any individual newly hired or employed, or
rehired or employed, to a position required to be
filled by reason of paragraph (1) shall be an
individual employed in such position under section
3101 of title 5 or section 1601 of this title.
3.

32 U.S.C. § 709 provides:

Technicians: employment, use, status
(a) Under regulations prescribed by the Secretary
of the Army or the Secretary of the Air Force, as the
case may be, and subject to subsections (b) and (c),
persons may be employed as technicians in-(1) the organizing, administering, instructing, or
training of the National Guard;
(2) the maintenance and repair of supplies issued
to the National Guard or the armed forces; and
(3) the performance of the following additional
duties to the extent that the performance of those
duties does not interfere with the performance of
the duties described by paragraphs (1) and (2):

64a
(A) Support of operations or missions
undertaken by the technician’s unit at the
request of the President or the Secretary of
Defense.
(B) Support of Federal training operations or
Federal training missions assigned in whole or
in part to the technician’s unit.
(C) Instructing or training in the United States
or the Commonwealth of Puerto Rico or
possessions of the United States of-(i) active-duty members of the armed forces;
(ii) members of foreign military forces (under
the same authorities and restrictions
applicable to active-duty members providing
such instruction or training);
(iii) Department
personnel; or
(iv)
Department
employees.

of
of

Defense
Defense

contractor
civilian

(b) Except as authorized in subsection (c), a person
employed under subsection (a) must meet each of the
following requirements:
(1) Be a military technician (dual status) as
defined in section 10216(a) of title 10.
(2) Be a member of the National Guard.
(3) Hold the military grade specified by the
Secretary concerned for that position.
(4) While performing duties as a military
technician (dual status), wear the uniform
appropriate for the member’s grade and
component of the armed forces.

65a
(c)(1) A person may be employed under subsection
(a) as a non-dual status technician (as defined by
section 10217 of title 10) if the technician position
occupied by the person has been designated by the
Secretary concerned to be filled only by a non-dual
status technician.
(2) The total number of non-dual status technicians
in the National Guard is specified in section
10217(c)(2) of title 10.
(d) The Secretary concerned shall designate the
adjutants general referred to in section 314 of this
title to employ and administer the technicians
authorized by this section.
(e) A technician employed under subsection (a) is
an employee of the Department of the Army or the
Department of the Air Force, as the case may be, and
an employee of the United States. However, a
position authorized by this section is outside the
competitive service if the technician employed in that
position is required under subsection (b) to be a
member of the National Guard.
(f) Notwithstanding any other provision of law and
under regulations prescribed by the Secretary
concerned-(1) a person employed under subsection (a) who is
a military technician (dual status) and otherwise
subject to the requirements of subsection (b) who(A) is separated from the National Guard or
ceases to hold the military grade specified by
the Secretary concerned for that position shall
be promptly separated from military technician

66a
(dual status) employment by the adjutant
general of the jurisdiction concerned; and
(B) fails to meet the military security standards
established by the Secretary concerned for a
member of a reserve component under his
jurisdiction may be separated from employment
as a military technician (dual status) and
concurrently discharged from the National
Guard by the adjutant general of the
jurisdiction concerned;
(2) a technician may, at any time, be separated
from his technician employment for cause by the
adjutant general of the jurisdiction concerned;
(3) a reduction in force, removal, or an adverse
action involving discharge from technician
employment, suspension, furlough without pay, or
reduction in rank or compensation shall be
accomplished by the adjutant general of the
jurisdiction concerned;
(4) a right of appeal which may exist with respect
to paragraph (1), (2), or (3) shall not extend
beyond the adjutant general of the jurisdiction
concerned when the appeal concerns activity
occurring while the member is in a military pay
status, or concerns fitness for duty in the reserve
components;
(5) with respect to an appeal concerning any
activity not covered by paragraph (4), the
provisions of sections 7511, 7512, and 7513 of title
5, and section 717 of the Civil Rights Act of 1991
(42 U.S.C. 2000e-16) shall apply; and
(6) a technician shall be notified in writing of the
termination of his employment as a technician

67a
and, unless the technician is serving under a
temporary appointment, is serving in a trial or
probationary period, or has voluntarily ceased to
be a member of the National Guard when such
membership is a condition of employment, such
notification shall be given at least 30 days before
the termination date of such employment.
(g)(1) Except as provided in subsection (f), sections
2108, 3502, 7511, and 7512 of title 5 do not apply to a
person employed under this section.
(2) In addition to the sections referred to in
paragraph (1), section 6323(a)(1) of title 5 also does
not apply to a person employed under this section
who is performing active Guard and Reserve duty (as
that term is defined in section 101(d)(6) of title 10).
(h) Notwithstanding sections 5544(a) and 6101(a)
of title 5 or any other provision of law, the Secretary
concerned may prescribe the hours of duty for
technicians. Notwithstanding sections 5542 and 5543
of title 5 or any other provision of law, such
technicians shall be granted an amount of
compensatory time off from their scheduled tour of
duty equal to the amount of any time spent by them
in irregular or overtime work, and shall not be
entitled to compensation for such work.
(i) The Secretary concerned may not prescribe for
purposes of eligibility for Federal recognition under
section 301 of this title a qualification applicable to
technicians employed under subsection (a) that is not
applicable pursuant to that section to the other
members of the National Guard in the same grade,
branch, position, and type of unit or organization
involved.

68a
(j) In this section:
(1) The term “military pay status” means a period
of service where the amount of pay payable to a
technician for that service is based on rates of
military pay provided for under title 37.
(2) The term “fitness for duty in the reserve
components” refers only to military-unique
service requirements that attend to military
service generally, including service in the reserve
components or service on active duty.
4.

42 U.S.C. § 415 provides in pertinent part:

Computation of primary insurance amount
(a) Primary insurance amount
*

*

*

*

*

(7)(A) In the case of an individual whose primary
insurance amount would be computed under
paragraph (1) of this subsection, who-(i) attains age 62 after 1985 (except where he or
she became entitled to a disability insurance
benefit before 1986 and remained so entitled in
any of the 12 months immediately preceding his
or her attainment of age 62), or
(ii) would attain age 62 after 1985 and becomes
eligible for a disability insurance benefit after
1985,
and who first becomes eligible after 1985 for a
monthly periodic payment (including a payment
determined under subparagraph (C), but
excluding (I) a payment under the Railroad
Retirement Act of 1974 or 1937, (II) a payment by
a social security system of a foreign country based
on an agreement concluded between the United

69a
States and such foreign country pursuant to
section 433 of this title, and (III) a payment based
wholly on service as a member of a uniformed
service (as defined in section 410(m) of this title))
which is based in whole or in part upon his or her
earnings for service which did not constitute
“employment” as defined in section 410 of this
title for purposes of this subchapter (hereafter in
this paragraph and in subsection (d)(3) referred to
as “noncovered service”), the primary insurance
amount of that individual during his or her
concurrent entitlement to such monthly periodic
payment and to old-age or disability insurance
benefits shall be computed or recomputed under
subparagraph (B).
(B)(i) If paragraph (1) of this subsection would
apply to such an individual (except for subparagraph
(A) of this paragraph), there shall first be computed
an amount equal to the individual’s primary
insurance amount under paragraph (1) of this
subsection, except that for purposes of such
computation the percentage of the individual’s
average indexed monthly earnings established by
subparagraph (A)(i) of paragraph (1) shall be the
percent specified in clause (ii). There shall then be
computed (without regard to this paragraph) a
second amount, which shall be equal to the
individual’s primary insurance amount under
paragraph (1) of this subsection, except that such
second amount shall be reduced by an amount equal
to one-half of the portion of the monthly periodic
payment which is attributable to noncovered service
performed after 1956 (with such attribution being
based on the proportionate number of years of such

70a
noncovered service) and to which the individual is
entitled (or is deemed to be entitled) for the initial
month of his or her concurrent entitlement to such
monthly periodic payment and old-age or disability
insurance benefits. The individual’s primary
insurance amount shall be the larger of the two
amounts computed under this subparagraph (before
the application of subsection (i)) and shall be deemed
to be computed under paragraph (1) of this
subsection for the purpose of applying other
provisions of this subchapter.
(ii) For purposes of clause (i), the percent specified
in this clause is-(I) 80.0 percent with respect to individuals who
become eligible (as defined in paragraph (3)(B))
for old-age insurance benefits (or became eligible
as so defined for disability insurance benefits
before attaining age 62) in 1986;
(II) 70.0 percent with respect to individuals who
so become eligible in 1987;
(III) 60.0 percent with respect to individuals who
so become eligible in 1988;
(IV) 50.0 percent with respect to individuals who
so become eligible in 1989; and
(V) 40.0 percent with respect to individuals who
so become eligible in 1990 or thereafter.
*

*

*

*

*

